                            ADVISORY REPORT ON
                      FY 1999 COST ALLOCATION STUDY

                       ADVISORY REPORT NUMBER A1-01

                                    December 7, 2000




This report may contain proprietary information subject to the provisions of 18 USC 1905 and
must not be released to the public or another agency without permission of the Office of
Inspector General.
                          U.S. Small Business Administration
                              Office of Inspector General
                                Washington, DC 20416



                                                           Advisory Report
                                                 Issue Date: December 7, 2000
                                                 Report Number: A1-01



TO:           Joseph P. Loddo, Chief Financial Officer



FROM:         Robert G. Seabrooks, Assistant Inspector General for Auditing

SUBJECT:      Advisory Report on FY 1999 Cost Allocation Study

       We performed a limited review of SBA’s Fiscal Year (FY) 1999 Activity Based Costing
Study (Cost Allocation Study) as it relates to the Small Disadvantaged Business Certification
(SDB) program. You requested this review to justify FY 1998 and FY 1999 overhead rates in
response to an audit finding from the Audit of Small Disadvantaged Business Certification
Program Obligations and Expenditures (Audit Report 00-19). In that finding, we reported that
the Small Business Administration (SBA) charged $2.8 million in overhead to SDB funds for
FYs 1998 and 1999 based on unsupported percentages.

        The SDB program provides federal procurement benefits to small disadvantaged
businesses bidding on federal contracts by giving them up to a 10 percent price preference on
their bids. In 1998, SBA started certifying that small disadvantaged businesses met specific
social, economic, ownership, and control eligibility criteria. Under the authority of the Economy
Act, various federal agencies reimbursed SBA for its actual costs to certify these companies.

        SBA developed its first Cost Allocation Study for FY 1997 and made incremental
improvements in its FY 1998 and FY 1999 models. SBA used the study to determine all costs,
both direct and indirect, for each cost object. For FY 1999, the Cost Allocation Study results
were used to allocate SBA’s recorded obligations to cost objects based on how resources were
consumed within the Agency. SBA incorporated the SDB program in the Cost Allocation Study
in FY 1999. Also, starting with the FY 1999 Cost Allocation Study, SBA surveyed employees in
headquarters and field offices to accumulate cost data on employees’ activities, capturing cost
data based on where employees actually worked rather than to which program code they were
assigned.
                                   OBJECTIVE AND SCOPE

        The objective of this review was to test and validate the accuracy of the results of SBA’s
FY 1999 Cost Allocation Study, as it related to the SDB program. We reviewed a sample of
surveys from the following offices: Detroit District Office (DO), Montpellier DO, New York
DO, Philadelphia DO, San Francisco DO, Chief Financial Officer (OCFO), HUBZone
Empowerment Contracting Program, Office of Inspector General, Office of General Counsel,
Entrepreneurial Development, Minority Enterprise Development, Native American Affairs, and
Small Disadvantaged Business Certification & Eligibility. We interviewed SBA employees in
the offices noted above, and the contractor who developed the Cost Allocation Study. We traced
SBA’s FY 1999 recorded obligations to the model to ensure that the model was using SBA’s
accounting data correctly. We also analyzed the model to determine whether the allocation
methodologies were reasonable and calculations were correct.


                                      RESULTS OF AUDIT

       The FY 1999 Cost Allocation Study overstated SDB certification expenses by $3.9
million. Additionally, since the Cost Allocation Study was based on obligations, which included
unliquidated balances on closed obligations, the model did not show actual SDB expenditures,
though the Economy Act requires SBA to determine the actual cost of the SDB program. Lastly,
SBA did not clearly document the model, as required by OMB Circular A-127.


Finding 1: The FY 1999 Cost Allocation Study Overstated the SDB Certification Expense

        The Cost Allocation Study overstated SDB costs because some offices/individuals
charged their time to the wrong activities or to activities that did not accurately allocate the time
they spent on SDB activities; offices that were unrelated to the SDB program had costs flowing
to the SDB program; and cost driver calculations contained errors. In some instances, more costs
were allocated to the SDB program than appropriate, and in other instances, less. Cumulatively,
these errors overstated SDB certification expenses by $3.9 million, reporting SDB expenses as
$14.6 million rather than $10.7 million.

       These errors occurred because SBA did not review the model and survey results for
accuracy, some offices did not give their employees sufficient time to properly complete the
surveys, and the written guidance SBA provided to employees was not explicit enough in
describing what the activities represented. Also, the SBA official overseeing this project did not
have sufficient training on SBA’s organizational structure and the software used to create the
model, which hindered her ability to test and validate the model. Since other Federal agencies
reimburse SBA for its actual cost to certify SDBs and SBA intends to use the Cost Allocation
Study to justify future SDB certification costs, errors in the Cost Allocation Study could result in
SBA undercharging or overcharging the contributing agencies.




                                                 2
        Management has already taken corrective action to address some of the problems noted
above. The OCFO made changes to the model as recommended by the OIG and revised the FY
1999 SDB program cost to $10.7 million. For the FY 2000 Cost Allocation Survey, SBA sent an
e-mail (SBA Procedural Notice 2000-567) directly to all SBA employees, rather than only to
senior office managers, asking employees to complete the survey. The notice provided
employees over one week to respond to the survey, which should allow employees enough time
to properly complete the surveys. Also, the survey guidance and activity descriptions were
clarified in the FY 2000 Cost Allocation Survey to address the weaknesses noted in the FY 1999
Survey.

                                       Recommendation

1A:    We recommend that the Chief Financial Officer implement internal controls to verify the
       accuracy of future surveys and the models.

Management’s Response:

       The Chief Financial Officer stated that procedures for the FY 2000 Cost Allocation Study
included internal control improvements that the OCFO believes address the OIG’s concerns. See
Attachment 1 for the full text of the response.

OIG Evaluation of Management’s Response:

       The Chief Financial Officer’s comments are partly responsive to the recommendation.
While the procedural changes implemented for the FY 2000 Cost Allocation Study should
improve the accuracy of future cost allocation studies, the CFO did not address verifying the
model to detect and correct potential errors.


Finding 2: Other Areas Requiring Management Action

Obligations from SBA’s Accounting Records do not Capture Actual Cost

        SBA used the obligation records rather than the actual expenditures from the Federal
Financial System (FFS) as a source to allocate costs, although the obligations included
unliquidated balances on completed contracts. SBA did not de-obligate unliquidated balances in
the SDB program’s completed projects/contracts immediately after the project/contract were
completed and all payments had been made. The OCFO reported that on October 3, 2000,
21 percent of the FYs 1998 and 1999 obligations that we questioned in the SDB Obligations and
Expenditures Audit were unliquidated balances on completed projects where all payments had
been made. These were ultimately de-obligated. While other Federal agencies are supposed to
be reimbursing SBA for its actual cost to certify SDB’s under the authority of the Economy Act,
these agencies could end up reimbursing SBA for more than its actual expenses if the Cost
Allocation Study includes unexpended obligations on completed projects. The Cost Allocation
Study model was developed without taking into consideration the unique reimbursement
requirements of the SDB program.


                                               3
Model’s documentation was insufficient

        SBA did not have sufficient documentation on the logic and decision making that went
into developing the cost allocation model. OMB Circular A-127, “Financial Management
Systems,” requires system user documentation to be sufficiently detailed to permit a person,
knowledgeable of the agency’s program and of systems generally, to obtain a comprehensive
understanding of the entire operation of the system. This Circular defines financial system as an
information system that is used for: collecting, processing, maintaining, transmitting, and
reporting data about financial events; supporting financial planning or budgeting activities;
accumulating and reporting cost information; or supporting the preparation of financial
statements. The Cost Allocation Study is used for all these purposes.

         The contractor developing the study knew how he derived his computations and formulas
and maintained various calculations in his own personal file. The contractor did not, however
document why certain cost drivers were selected and why the model allocated costs to selected
cost objects in the prescribed manner, nor did he provide SBA with the various calculations he
documented until requested to by the auditor. Without such documentation, SBA could not
verify the accuracy or reasonableness of the logic behind the model, and SBA would be unable
to justify the model should the contractor become unavailable. We found some errors contained
in this report directly as a result of reviewing the file provided by the contractor.

                                       Recommendations

We recommend that the Chief Financial Officer:

2A:    Enforce procedures that ensure that unliquidated obligations remaining on completed
       projects/contracts are de-obligated immediately after the project/contract is completed,
       and prior to allocating costs.

2B:    Document the logic and methodology behind the cost allocation model as required by
       OMB Circular A-127.

Management’s Response:

        In addition to obtaining a written response from the Chief Financial Officer (CFO), we
met with the Deputy CFO to discuss the findings, recommendations, and management’s
response. For recommendation 2A, we initially recommended in our draft report that the CFO
implement procedures that ensure unliquidated obligations on completed project/contracts are
de-obligated immediately after the project/contract is completed. The CFO’s written response
indicated that SBA already has procedures in place for de-obligating unliquidated obligations. In
our meeting with the Deputy CFO, he agreed that it would be appropriate to recommend that the
existing procedures should be enforced rather than implemented. In response to
recommendation 2B, the CFO stated that the contractor would provide the recommended




                                                4
documentation as part of the deliverables for the FY 2000 Cost Allocation Study. See
Attachment 1 for the full text of the CFO’s written response.

OIG Evaluation of Management’s Response:

       Since SBA has procedures to liquidate obligations in a timely basis, we revised
recommendation 2A to “enforce procedures” rather than “implement procedures.” The
comments provided by SBA management are responsive to the two recommendations in this
finding.

                                           * * * * *

       The findings and recommendations in this report are subject to review and
implementation of corrective action by your office in accordance with existing Agency
procedures for audit follow-up.

       Any questions or discussion of the issues contained in the report should be directed to
Robert Hultberg, Director, Business Development Programs Group, at (202) 205-7204.




                                                5
        It is important to remember that an Acitivity Based Cost (ABC) system, and any cost
accounting system for that matter, is designed to provide an estimate of the cost of SBA’s
program services. We firmly believe that our cost study results provide a reasonable estimate of
the costs of the various programs and activities.

        The principal problem the OIG encountered with the review of the FY 1999 cost study
was directly related to the SDB program, and not necessarily the cost study itself. This review
must be considered in context with the newness of the SDB program to SBA. It become clear
during the review that there was a disagreement between SBA and the OIG regarding the scope
of the SDB program. This resulted in responses to the survey that were inconsistent with the
program scope, resulting in some misstatements of costs associated with the SDB program that
were corrected. This same problem no longer exists, and in order to increase the accuracy of
responses to the FY 2000 survey, we also included activity descriptions, as noted above in
response number 2.

Recommendation 2A: Implement procedures that ensure that unliquidated obligations
remaining on completed projects/contracts are de-obligated immediately after the
project/contract is completed, and prior to allocating costs.

SBA Response: This is really a budget execution issued and not an ABC cost study issue. As
part of the SBA’s budget execution, the Office of the Chief Financial Officer (OCFO) maintains
procedures during the fiscal year to provide reports periodically to SBA program managers on
open obligations, with the instruction to review the open obligations and close them for
completed projects. Also, the SBA’s procedures for yearend processing include instructions to
all program managers to closeout unliquidated obligations for completed projects prior to
yearend. The OCFO follows up with program managers on questionable open obligations,
especially those of large dollar amounts. The budget execution process during FY 2000
provided heightened attention to open obligations, especially those open at yearend.

        It should be remembered that the process to obligate funds allows for individual
obligations to remain open as long as legitimate work continues on the project or activity. This
sometimes extends into multiple years, especially in the case of our grant programs. However,
we believe that the use of the above procedures, including monitoring, provide satisfactory
internal control to liquidate obligations in a timely manner.

Recommendation 2B: Document the logic and methodology behind the cost allocation model
as required by OMB Circular A-127.

SBA Response: The ABC cost contractor will provide documentation as a part of the required
deliverables for the FY 2000 cost study. The OCFO has received a draft of this documentation,
and the final documentation will be provided with the FY 2000 cost study results. Our review of
the draft documentation for the FY 2000 ABC process indicates that it will meet the OBM
Circular A-127 requirement for systems documentation.




                                                2
                                                                                                                 ATTACHMENT 2


                                           AUDIT REPORT DISTRIBUTION



Recipient                                                                                          Number of Copies

Associate Deputy Administrator for Government Contracting and Business
Development ................................................................................................................. 1

Associate Administrator for Business Development .................................................... 1

Chief Financial Officer ................................................................................................. 1
       Attn.: Jeff Brown

General Counsel ............................................................................................................ 2

General Accounting Office ............................................................................................ 2
